                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 111040013                                                                      Page 1 of 1



         This case was opened in response to information received from another federal agencyl regarding its
         ongoing investigation of alleged false statements made by a current NSF employee2 (Subject) in
         employment application materials submitted to various federal agencies. On March 16, 2011, the
         Subject was indicted in the Eastern District ofVirginia (EDVA) on eight counts of 18 U.S.c. § 1001.
         Shortly after the indictment, we recommended NSF take appropriate action. 3

         On May 4, 2011, the Subject pled guilty to count one of the indictment and the remaining seven
         counts were dismissed. 4 The Subject was removed from her position effective July 1, 2011. 5

         On July 29,2011, the Subject was sentenced to three years supervised release. 6

         This case is closed with no further action taken.




         I   FBI
         2 Karen  Lancaster, Program Analyst, BIO/IOS
         3  Tab 1 Interim Investigation Report
         4 Tab 2   Statement of Facts
         5 Tab 3 Letter of Decision
         Ii Tab 4  Sentencing Documents




NSF OIG Form 2 (11102)
CONFIDENTIAL                                                                     CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                     Confidential
             Interim Investigation Report
               Case Number 111040013
                                April 4, 2011
                 This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal infonnation, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knOWledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Infonnation and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                             NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                           CuNFIDENTIAL


Background

In April 2010, the Federal Bureau of Investigations (FBI) informed the Office of Inspector
General (OIG) of its ongoing investigation involving an employee's1 alleged false statements in
employment application materials. The employee repeatedly submitted false information
relating to her prior criminal history, employment history, and suitability for employment at
various government entities including the Patent and Trademark Office (PTa), Defense
Intelligence Agency (DIA), State Department, and the Securities and Exchange Commission
(SEC).

Indictment and Arraignment in U.S. District Court

On March 16,2011, a Grand Jury in the U.S. District Court of the Eastern District of Virginia
indicted the employee for eight counts under 18 § U.S.C. 100 1(a), including a concealment
scheme, false statements, and false documents. 2 Specifically, the employee deliberately
concealed and falsified information on her application materials regarding her prior arrests,
charges, convictions, and terms of imprisonment. 3 She also mischaracterized the unfavorable
circumstances of a prior employment termination, and misreported her previous titles,
responsibilities, and salary levels at previous federal jobs.

The employee was arraigned on March 25, 2011. One of the conditions of her release was to
notity her current employer of the charges. 4 To date, neither the Division of Human Resource
Management (HRM)5 nor the employee's division (BIO/IOS)6 has been notified. The trial is
scheduled for May 11, 2011.

OPM's Investigation and Referral to NSF

Upon selection for her current position, the Office of Personnel Management (OPM) conducted
an investigation to determine the employee's suitability for a covered position. In June 2010,
OPM furnished the results of its investigation to HRM for its review and adjudication.7 At that
time, OPM also directed the employee to file a revised Declaration for Federal Employment (OF
306). Based on our review of the employee's electronic Official Personnel File (eOPF), she has
not complied with OPM's direction. 8


I Karen Lancaster, Program Analyst, Directorate for Biological Sciences, Division Of Integrative Organismal
Systems (BIOIIOS).
2 Tab 1.

3 In 2002, Lancaster was convicted oftheft and received one year of probation. In 2005, she was convicted of petit
larceny and served 30 days in jail.

4 Tab 2. Portions of the Order Setting Conditions of Release are illegible, so we included the prosecutor's email
detailing the conditions of the employee's release.                                                            '
5 We confirmed with                                                                 , on March 31, 2011.
6 We confirmed with                                    on March 30, 2011, and
         , on March 31, 2011.
7 Tab 3.
8   We reviewed the eOPF on March 24, 2011.
Further, the employment application materials submitted for her current position contain the
same false information and mischaracterizations as outlined in the indictment. Specifically, on
the Declaration for Federal Employment, the employee falsified the answers to the questions
pertaining to her prior convictions, imprisonment, and probation. She also failed to disclose the
terms of her unfavorable termination in which she had been fired but later allowed to resign due
to performance problems. Of note, the employee signed the following certification:

        I certify that, to the best of my knowledge and belief, all of the information on and
        attached to this Declaration for Federal Employment...is true, correct, complete, and
        made in good faith. I understand that a false or fraudulent answer to any question or
        item on any part of this declaration or its attachments may be grounds for not
        hiring me, or for firing me after I begin work, and may be punishable by fme or
        imprisonment.

Review of Applicable Rules and Regulations

Based on her actions described above, the employee showed a lack of integrity and violated
policies and rules applicable to employees of NSF and of the executive branch of the federal
government. Specifically, pursuant to 5 C.F.R. § 2635.101, "public service is a public trust,"
requiring executive branch employees to "respect and adhere to the principles of ethical
conduct,,,9 and to "put forth honest effort in the performance of their duties."l0 In addition,
"employees shall endeavor to avoid any actions creating the appearance that they are violating
the law or the ethical standards."ll

The NSF Personnel Manual states:

        NSF employees are expected to adhere to basic standards of integrity and decency. NSF
        employees must not engage in criminal, dishonest, immoral, or any other conduct
        prejudicial to the Government. 12

Recommendation

We recommend that NSF review this Interim Investigation Report and determine what actions
are appropriate to ensure the integrity and security ofNSF' s programs and operations.




95 C.F.R. § 2635.101 (a).
10
   5 C.F.R. § 2635.101 (b)(5).
11 5 C.F.R. § 2635.101 (b)(14).
12 NSF Manual14, Section I-143, Tab 9.




                                                2
          Case 1:11-cr-00141-LMB Document 21                Filed 05/04/11 Page 1 of 3

                                                                                                IN OPFW COURT




                    IN THE UNITED STATES DISTRICT COURT FOR THE                            MAY-42011
                                                                                         CLERK. US. DISTRICT COURT
                              EASTERN DISTRICT OF VIRGINIA                                 ALEXANDRIA, VIRGINIA

                                       Alexandria Division


UNITED STATES OF AMERICA


               v.                                Criminal No. 1:11CR141


KAREN LANCASTER,

               Defendant.




                                    STATEMENT OF FACTS


       The parties stipulate that the allegations in Count One of the Indictment and the following

facts are true and correct, and that had the matter gone to trial the United States would have

proven them beyond a reasonable doubt.

1.     From in or about October 2006, and continuing up to and through in or about May 2008,

in the Eastern District of Virginia and elsewhere, in a matter within the jurisdiction of the

executive branch of the Government of the United States, defendant KAREN LANCASTER did

knowingly and willingly falsify, conceal, and cover up by a trick, scheme, and device material

facts, that is, material information concerning her criminal history, employment history, and

suitability for employment with the federal government.

2.     Between in or about October 2006 and continuing up to and through in or about May

2008, LANCASTER applied for positions with the Patent and Trademark Office, the Defense

Intelligence Agency, the Department of State and the Securities and Exchange Commission, all

of which are agencies within the Executive Branch of the Government of the United States.
              Case 1:11-cr-00141-LMB Document 21             Filed 05/04/11 Page 2 of 3




3.         In her application materials for those positions, LANCASTER, among other things,

concealed and falsified information about her prior arrests, charges, convictions and terms of

imprisonment; the unfavorable circumstances under which she had resigned from prior federal

employment; the roles and responsibilities she had at previous federal jobs; and her salary

history.

4.         As part of her scheme of concealment and falsification, LANCASTER, among other

things, submitted work histories containing false information, made false statements on SF-86

forms and SF-306 forms, and altered SF-50 forms, all of which she provided to her prospective

federal employers.

                                          Respectfully submitted,

           Neil H. MacBride                                          Jack Smith
           United States Attorney                                    Chief
           Eastern District of Virginia                              Public Integrity Section

By: /&&»<£>      /^/&,>tc>J>
     Mark D. Lytic   '
                                                               By:   "Peter l^asbn
           Assistant United States Attorney                          Kevin O. Driscoll
                                                                     Trial Attorneys
          Case 1:11-cr-00141-LMB Document 21               Filed 05/04/11 Page 3 of 3




       After consulting with my attorney and pursuant to the plea agreement entered into this

day between the defendant, KAREN LANCASTER and the United States, I hereby stipulate that

the above Statement of Facts is true and accurate, and that had the matter proceeded to trial, the

United States would have proved the same beyond a reasonable doubt.



                                              Karen Lancaster

       I am KAREN LANCASTER'S attorney. I have carefully reviewed the above Statement

of Facts with her. To my knowledge, her decision to stipulate to these facts is an informed and

voluntary one.



                                              Robert Jenkins, Esquire
                                                lorney for Karen Lancaster
                                          National Science Foundation
                                          4201 Wilson Boulevard
                                          Arlington, Virginia 22230




        Date:             June 28, 2011


        To:               Karen Lancaster
                          Program Analyst
                          Division of Integrative Organismal Systems

        From:             Jane Silverthorne
                          Deputy Division Director
                          Division of Integrative Organismal Systems'

        Subject:           Letter of Decision

    By letter dated May 17, 2011, your supervisor,                      issued to you a Notice of
    Proposed Removal ("Notice ), in which she proposed to remove you from your position of
                                n


    Program Analyst and from employment with the National Science Foundation ("NSF" or the
    "Foundation"). I was designated as the deciding official on that proposal. In the Notice, you
    were advised of your right to representation and your right to provide an oral and/or written
    response to me within 14 calendar days' of your receipt of .the proposal. On June 1, 2011, .
    you requested an opportunity to respond orally and in writing. The meeting was scheduled
    for June 3, 2011; however, you indicated that you wanted representation at the meeting and
    needed time to make arrangements with your attorney. You were provided with two'
    alternate dates and the meeting was ultimately scheduled for June 7, 2011. At the meeting,
    which you attended without representation, you provided me with a written response dated
    May 24, 2011.1

  . You provided me with numerous documents as attachments to your June 7 response. One
    of these attachments was a copy of a letter, dated June 3, 2009, from you to
    NSF's                               In your response, you indicated that you had previously
    submitted this letter to        in June 2009 to clarify your answer to question 9 of the April
    29, 2009 Optional Form 306 ("OF~306") that you submitted to NSF. Upon reviewing your
    response, I asked           for additional information regarding the June 3 letter, including
    the circumstances that may have led up to her receipt of it.              provided me with
    additional information pursuant to my request, and I forwarded that information to you on
    June 13, 2011. I also provided you with an opportunity to respond or comment on it. On
    June 14, 2011, you provided me with a preliminary comment on the new information from
                 and sought additional clarification from me regarding one of
    statements. I provided you with the requested clarification on June 21,2011. Although you
    were granted additional time to provide me with a supplemental response in connection with
    the information provided by           you declined to do so.

    In making my decision, I have given full consideration to the information contained in the
    Notice, as well as to the information that you provided to me in 'your oral response, and in
    your June 7 and June 14th written responses. I have determined that the charge of


1 Because I first received a copy ofyour written response on June 7, 2011, I will consider this the date on which the
response was submitted.
                                                                                              2

Submission of Falsified Employment Documents, Ingludlng all four specifications, has been
substantiated, based upon the evidence that has b.een presented to me. For the reasons
set forth more fully below, I have also determined that the penalty of rem()val is appropriate
in this case.


The Charge of Submission ofFalsified Employmf#nt Documents to NSF Is Sustained.

The proposal to remove you from the Foundation is based on a charge of Submission of
Falsified Employment Documents to NSF, and is supported by four specifications.

Specification 1

Specification 1· describes your failure to provide a tr'Uthful answer to ,question 9 of the OF-
306", dated April 29, 2009. Question 9 of the OF-~06 asks, "During the last 10 years, have
you been convicted. been imprisoned, been on probation. or been on parole?" You
answered "no." As detailed in the Notice, however, the record demonstrates that you were
convicted of two separate misdemeanor offense$ in 2004 and 2005. and you received
probation before judgment after being arrested and charged with a misdemeanor in 2002.
You do not deny that you should have answered "yes" to this question.            .


Thus, I find that you provided false information in   re~ponse   to question 9 of the OF-306. I,
therefore, sustain specification 1.


Specification 2

Specification 2 describes your failure to provide a trl)thful answer to question 12 of the OF-
306. Question 12 of the OF-306 asks, "During th$ last 5 years, have you been fired from
any Job for any reason, did you quit after being told that you would be fired, did you leave
any job by mutua! agreement because of specific problems, or were you debarred from
Federal employment by the Office of Personn~I' Management, or any other Federal
agency?" You answered, "no". Notwithstanding your contention to the contrary, r find that
you provided a false response to this question.

The record demonstrates, and you concede, that you left your former position with the
Federal government due to "unfavorable circumstances." Moreover, in your response, you
Indicate that your attorney negotiated your resignation from your former Federal agency.
Thus, it seems apparent that you left this job by mutual agreement because of specific
problems.

You argue, however, that the answer you provided to question 12 was an honest attempt at
providing a truthful response to the question as you interpreted it. Although you assert your
belief that the circumstances under which you r~$lgned from your previous employment
were not embraced by the question, you do not provide any specific information in support
of this position. Therefore, I sustain speCification 2.




                                                                                               2
                                                                                              3

Specification 3

Specification 3 describes your failure to provide a truthful answer to question 13 on the OF-
30S.. Question 13 of the OF-30S asks, "Are you d$linquent on any Federal debt?", You
answered, "no". As detailed in the Notice, you wer~ delinquent on
                          You do not deny that yOu should have answered "yes" to this
question.            .

Thus, I find that you provided false Information In r(#$ponse to question 13 of the OF-30S. I,
therefore, sustain specification 3.


Speoification 4

Specification 4 describes your failure to correct your response to question 12 when, at the
direction of the U.S. Office of Personnel ManagemE,mt ("OPM"), you submitted a revised OF-
30S to NSF on August 3,2010. The record demonstrates that you changed your answers
for questions 9 and 13 from "no" to ".yes." You fail~d, however, to amend your response to
question 12. As detailed previously, I have concluded that you should have answered "yes"
to question 12.

Thus, I find that you provided false infonnatlon in response to question 12 of the August 3,
2010, OF-30S submitted to NSF. I, therefore, sustain specification 4.



The Penalty of Removal Promotes the Efficiency of the Service.

Your submission of false employment documents tQ NSF is a serious and significant offense
reflecting adversely on your reliability, veracity. trustworthiness, and ethIcal conduct.
Moreover, your misconduct here was not an isolated Incident The record demonstrates that
you recently pled guilty to "knowingly and willingly fa.lsifying, concealing, and covering up by
a trick, scheme, and device material facts, that 1$, material information concerning your
criminal history, employment history, and suitability for employment with the federal
govemment." In doing so, you have admitted to submitting falsified employment documents
to multiple Federal agencies from 200S through ~008. Your pattem of providing false
Information to Federal agencies in connectiOR with applications for employment
demonstrates that your submission of false information to NSF on the April 29, 2009 OF-306
was not inadvertent.

As the Notice indicated, as a result of your misconduct, your immediate supervisor has lost
confidence in your ability to function as a Program Analyst in our division. Based upon the
record before me, I too can no longer trust that you will carry out your work in an honest and
professional manner.

Additionally, it is clear that you were on notice about the importancBof providing truthful
information on the OF-30e. The OF-30S requires that you certify that all of the Information
provided on the form is true, correct, complete, and made in good faith. Moreover, the OF-
306 informs you that "a false or fraudulent answer tQ any question or item on any part of this
declaration or its attachments may be grounds for not hiring me, or for firing me after I begin



                                                                                              3
                                                                                                    4


work, and may be punishable by fine or imprisonment." Despite this warning, you submitted
the OF-30a to NSF in April 2009 even though it conta.lned false information.


In your response, you assert that you voluntarily amended the initial responses that you
provided to NSF 9n the April 29, 2009 OF-306, and that I should consider this fact in making
my decision. As alluded to previously, I am persuaded that you did, in fact, send a letter to
           on June 3, 2009, in which you amended Y9ur response on question 9 of the OF-
306 from "no" to "yes." I do not believe, however, that you made this amendment of your
own volition. After you completed the OF-306, a background investigation on you was
initiated.          indicated that she received unfijvorable fingerprint results in connection
with your background investigation, and subseqljently contacted you to inquire as to
whether you had any documentation to verify that the answer of "no" that you provided in
response to question 9 of the OF-306 was correct. Shortly thereafter, she received the June
3, 2009, letter from you, in which you indicated that your initial response to question 9 was
false. You have not disputed                 recollection of the circumstances that led up to
your submission of the June 3, 2009, letter to her. With respect to question 13, you
amended your response from "no" to "yes" in Augul1t 2010, when you submitted a revised
OF-306 to NSF. 2 Again, however, you did not make this change voluntarily. The record
demonstrates that OPM ordered that you provide NSF with              a
                                                                    revised OF-306 containing
accurate responses. Thus, I have concluded that, although you did amend your initial
responses to questions 9 and 13 of the OF-306, you did not make these changes of your
own volition.


In your response, you also argue that mitigation of the proposed penalty is appropriate here
because you have set up a payment plan                                                    to
resolve the delinquent debt.· The fact that you haVE> established such a plan              is
not relevant to the charge against you, however. The charge, and speCifically specification
3, was based on your failure to provide truthful information to question 13 of the OF-306,
and not on the fact that you had a delinquent Federal debt. Although I commend you for
taking steps to payoff your Federal debt, I do not view this as a mitigating factor here.




2  Although you do not state so expficltly, it appears that you may also be arguing that you corrected
your answer to question 13 voluntarily on June 3, 2009.. Specifically. you included a document in
your response purporting to be the second page of YQl,lr June 3, 2009, lettar to                  This
document reflects the existence of a Federal debt. To the extent you are making this argument, I
reject it. I do not believe that this page was submitted wlth your letter to          on June 3, 2009
because the text of this letter speaks only to question 9; and does not reference question 13. Rather,
it appears that you submitted this page to NSF when you corrected the OF-306 in August 2010.


                                                                                                    4
                                                                                                 5




In addition to the foregoing information that you prQvlded, I have considered your 2 years of
service with NSF, as well as your 25 years of Fede)ral service. Your period of service to
NSF is relatively short. so I do not view this as a mitigating factor. I have also considered
your performance, which was most recently rated ~$ minimally successful. Thus, I do not
consider your performance to be a mitigating factor either. Moreover, I have considered the
fact that you have no prior disCiplinary record at NSF. Although I do consider this to be a
slight mitigating factor, it is insufficient to mitigate the penalty here.

I know of no comparable case at NSF nor have I been involved either as proposing or
deciding official regarding like or similar cases. P!owever, the Merit Systems Protection
Board has routinely held that removal is a reasonable penalty for falsification.

I do not believe that you have the potential for rehabilitation. First, you have engaged in a
pattern of misconduct over the course of sever~1 years whereby you have repreatedly
provided false information to Federal agencies in conjunction with your employment
applications. In addition, even after you were ordered by OPM to provide accurate
responses to NSF on the questions posed by th$ OF"306, you still failed to amend your
response to question 12. Due to the· nature of your misconduct, I find that no sanction short
of removal is appropriate in this case..

In sum, after giving full and fair consideration to all the information before me, and in
accordance with 5 CFR Part 752, I find that the charge of Submission of Falsified
Employment Documents to NSF is fully supported by the evidence. Further, I find that each
specification standing alone would be sufficient to support the action of removal from the
Foundation. Accordingly, I have decided to remove you from your pOSition and from
employment with the Foundation effective July 1, 2Q11, which will promote the efficiency of
the service.


Redress

You have the right to appeal this action, in writing, to the Merit Systems Protection Board
("MSPB"), Washington Regional Office, 1800 DiagQnal Road, Alexandria, Virginia, 22314.
For your convenience, a copy of the MSPB appeal form and procedures are enclosed. If
you elect to appeal this action, you must file your appeal with the MSPB no later than 30
days after the effect1ve date of your removal. You may be represented by a representative
of your choice In filing an appeal.

If you believe this action was motivated in whole or in part by discrimination because of your
race, color, religion, sex, age, national origin, physical or mental disability, or allegation{s) of
reprisal for prior EEO activity, you have the right to: (1) appeal this action and your
allegation(s) of discrimination and/or reprisal to the MSPB; or (2) file a complaint about this
action with NSF's Office of Diversity and InclUSion, pursuant to 29 CFR Part 1614. If you.


                                                                                                 5
                                                                                            6


decide to file a discrimination complaint about this action, you must bring your allegation(s)
of discrimination to the attention of an EEO counselor within forty-five (45) calendar days of
the effective date of your removal.

Please note that exercising your right to file an appeal or complaint will not postpone the
July 1, 2011 date of your removal.                  .
                                              ~ @1e/U::r1k(
                                              Jane Silverthorne




I acknowledge   receipt,.9f~his   document.
            /.'-
                       /'
                       .


Signature                                                   Date   •




                                                                                            6
            Case 1:11-cr-00141-LMB Document 30                     Filed 07/29/11 Page 1 of 4 PageID# 139
AO 245 S (Rev. 2/99)(EDVA rev.1) Sheet 1 - Judgment in a Criminal Case


                               UNITED STATES DISTRICT COURT                                          J__l_ipl
                                          Eastern District of Virginia
                                                  Alexandria Division                                 JUL2 9 20II          LL-*


UNITED STATES OF AMERICA                                                                         CLERK, U.S. DISTRICT COUHT
                                                                                                    ALEXANDRIA. VIRGINIA

                                                                     Case Number 1:11CR00141-001

KAREN M. LANCASTER,


Defendant.


                                       JUDGMENT IN A CRIMINAL CASE

        The defendant, KAREN M. LANCASTER, was represented by Robert L. Jenkins, Jr., Esquire.

        The defendant pleaded guilty to Count 1 of the Indictment. Accordingly, the defendant is adjudged guilty
of the following count, involving the indicated offense:

                                                                                     Date Offense
Title & Section                             Nature of Offense                         Concluded     Count Number

18U.S.C. §1001(a)(1) and 2        Concealment Scheme (Felony)                          03/2005                1

        On motion of the United States, the Court has dismissed Count(s) 2, 3,4,5,6, 7, and 8 of the Indictment.

      As pronounced on July 29, 2011, the defendant is sentenced as provided in pages 2 through 6** of this
Judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.

      IT IS FURTHER ORDERED that the defendant shall notifythe United States Attorney for this district within
30 days of any change of name, residence, or mailing address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.

        Signed this 29th day of July, 2011.



                                                                                        /s/
                                                                         Leonie M. Brinkema
                                                                         United States District Judge




 'Page 6 of this document contains sealed information.
            Case 1:11-cr-00141-LMB Document 30              Filed 07/29/11 Page 2 of 4 PageID# 140
AO 245 S (Rev. 3/99)(EDVA. rev.) Sheet 4 - Probation


                                                                                            Judgment-Page 2 of 6
Defendant: KAREN M. LANCASTER
Case Number: 1:11CR00141-001
                                                       PROBATION

       The defendant is hereby placed on probation for a term of THREE (3) YEARS. The Probation Office shall
provide the defendant with a copy of the standard conditions and any special conditions of probation.

        While on probation, the defendant shall not commit another federal, state, or local crime.

        While on probation, the defendant shall not illegally possess a controlled substance.

        While on probation, the defendant shall not possess a firearm or destructive device.

        If this judgment imposes a fine or a restitution obligation, it shall be a condition of probation that the
        defendant pay any such fine or restitution in accordance with the Schedule of Payments set forth in the
        Monetary Penalties sheet of this judgment.


                                      STANDARD CONDITIONS OF PROBATION


The defendant shall comply with the standard conditions that have been adopted by this court (set forth below):
1) The defendant shall not leave the judicial district without the permission of the court or probation officer.
2) The defendant shall report to the probation officer and shall submit a truthful and complete written report
    within the first five days of each month.
3) The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the
    probation officer.
4) The defendant shall support his or her dependents and meet other family responsibilities.
5) The defendant shall work regularly at a lawful occupation unless excused by the probation officer for
    schooling, training, or other acceptable reasons.
6) The defendant shall notify the Probation Officer within 72 hours, or earlier if so directed, of any change in
     residence.
7)   The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute,
     or administer any narcotic or other controlled substance, or any paraphernalia related to such substances,
     except as prescribed by physician.
8)   The defendant shall not frequent places where controlled substances are illegally sold, used, distributed or
     administered.
9)  The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with
    any person convicted of a felony unless granted permission to do so by the probation officer.
10) The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall
    permit confiscation of any contraband observed in plain view of the probation officer.
11) The defendant shall notify the probation officerwithin seventy-two hours of being arrested or questioned by
     a law enforcement officer.
12) The defendant shall not enter into any agreement to act as an informer or a special agent of a law
     enforcement agency without the permission of the court.
13) As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned
    by the defendant's criminal record or personal history or characteristics, and shall permit the probation officer
    to make such notifications and to confirm the defendant's compliance with such notification requirement.
              Case 1:11-cr-00141-LMB Document 30                Filed 07/29/11 Page 3 of 4 PageID# 141
AO 245 S (Rev. 3/99)(EDVA. rev.) Sheet 4 (cont'd) - Probation


                                                                                          Judgment-Page 3 of 6
Defendant: KAREN M. LANCASTER
Case Number: 1:11CR00141-001

                                        SPECIAL CONDITIONS OF PROBATION

While on probation, pursuant to this Judgment, the defendant shall also comply with the following additional
conditions:

1)      The defendant must participate in a program approved by the United States Probation Office for mental
        health treatment, which program may include residential treatment and testing, all as directed by the
        probation officer. The defendant shall take all medications as prescribed and waive all rights of
        confidentiality regarding mental health treatment to allow the release of information to the United States
        Probation Office and authorize communication between the probation officer and the treatment provider.
        The defendant to pay all costs, as directed by the probation officer.

2)      The defendant shall provide the probation officer access to any requested financial information.

3)      The defendant shall not incur new credit card charges or open additional lines of credit, or engage in any
        financial transaction over $500.00 without prior approval of the probation officer.

4)      The defendant shall notify probation of any employment attempts with the federal government. The
        defendant shall also notify any employer of her conviction and probation.

5)      Although mandatory drug testing is waived pursuant to 18 U.S.C. §3563(a)(4), defendant must remain drug
        free and her probation officer may require random drug testing at any time.
             Case 1:11-cr-00141-LMB Document 30                     Filed 07/29/11 Page 4 of 4 PageID# 142
AO 245 S (Rev. 3/99)(EDVArev.) Sheet 5 - Financial Penalties


                                                                                             Judgment-Page 4 of 6
Defendant: KAREN M. LANCASTER
Case Number: 1:11CR00141-001
                             CRIMINAL MONETARY PENALTIES

The defendant shall pay the following total monetary penalties in accordance with the schedule of payments set
out below.



                        Count                                  Special Assessment             Fine

                           1                                             $100.00             $0.00
                         Total                                           $100.00             $0.00

                                                               FINE:


No fines have been imposed in this        case.


                                                SCHEDULE OF PAYMENTS

Payments shall be applied in the following order: (1) assessment; (2) restitution; (3) fine principal; (4) cost of
prosecution; (5) interest; (6) penalties.

The special assessment is due in full immediately. If not paid immediately, the Court authorizes the deduction of
appropriate sums from the defendant's account while in confinement in accordance with the applicable rules and
regulations of the Bureau of Prisons.

Any special assessment, restitution, or fine payments may be subject to penalties for default and delinquency.

Ifthis judgment imposes a period of imprisonment, payment of Criminal Monetary penalties shall be due during
the period of imprisonment.

All criminal monetary penalty payments are to be made to the Clerk, United States District Court, except those
payments made through the Bureau of Prisons' Inmate Financial Responsibility Program.
